DOE/IG-0427




         AUDIT
        REPORT

                                            THE
                                U.S. DEPARTMENT OF ENERGY'S
                                 PRIME CONTRACTOR FEES ON
                                   SUBCONTRACTOR COSTS




                                           SEPTEMBER 1998




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                       September 11, 1998


MEMORANDUM FOR THE SECRETARY


FROM:                  Gregory H. Friedman
                       Acting Inspector General

SUBJECT:               INFORMATION: Audit Report on "The U.S. Department of Energy's
                       Prime Contractor Fees on Subcontractor Costs"

BACKGROUND

In Fiscal Year 1996, the Department's prime contractors awarded $5.3 billion in subcontracts. The
purpose of this audit was to determine if the Department adjusted the fee bases of prime
contractors to reflect the actual effort necessary to manage the technical and administrative
activities of their subcontractors.

RESULTS OF AUDIT

The Department included a majority of subcontractor costs in the fee bases of many for-profit
contractors even though subcontractor efforts did not require significant oversight or management
by the prime contractor. In effect, both prime contractors and their subcontractors received fees
for the same effort. The Department had not developed specific policies and procedures to define
subcontractor costs that should be excluded from prime contractor fee bases. For 12 prime
contractors audited, fees in a one-year period increased by an estimated $34 million because fee
bases were not adjusted. We recommend that the Deputy Assistant Secretary for Procurement and
Assistance Management (1) issue specific guidance to the Department's procurement offices
identifying the types of and extent to which subcontractor costs may be included in prime
contractor fee bases and (2) review, as part of a Procurement and Assistance Management quality
assurance mechanism, subcontractor costs analyses performed to ensure fee policy is implemented.

MANAGEMENT REACTION

Management did not take exception to the audit finding and recommendations, but stated that the
Department should not remove all or even the majority of subcontractor costs from the prime
contractors' fee bases. Management suggested that the new Departmental fee policy which limits
subcontracted costs to be included in prime contractors' fee bases to 80 percent was appropriate.
We concluded that while the 80 percent ceiling may be a positive first step, more aggressive
policies are needed. The report includes greater detail on the position expressed by management
and on the Office of Inspector General's response.

Attachment

cc: Deputy Secretary
    Under Secretary
The U.S. Department of Energy's Prime Contractor Fees
On Subcontractor Costs




TABLE OF
CONTENTS
                   Overview

                   Prime Contractor Fees on Subcontractor Costs ...................................1


                   Adjustment of Fee Bases

                   Details of Finding...............................................................................3

                   Recommendations and Comments .......................................................7


                   Appendix 1

                   Scope and Methodology .....................................................................9

                   Appendix 2

                   Prior Office of Inspector General Reports .........................................10

                   Appendix 3

                   Verbatim Management Comments.....................................................11
Overview

INTRODUCTION      The U.S. Department of Energy (DOE) uses prime contractors to manage
AND OBJECTIVE     and operate its major facilities. These prime contractors obtain assistance
                  from subcontractors to achieve the Department's objectives and missions.
                  In Fiscal Year 1996, these prime contractors awarded $5.3 billion in
                  subcontracts.

                  In 1994, a Contract Reform Team recommended changes in contracting
                  practices. One objective of contract reform--obtain quality performance at
                  the least cost--was applicable to the subcontracting practices of the
                  Department's prime contractors. This cost reduction objective resulted in
                  policy changes that have been incorporated into the Department's
                  Acquisition Regulations. Under the Acquisition Regulations, prime
                  contractors are expected to subcontract work when it is cost effective
                  and/or more efficient to do so.

                  The Regulations allow payment of a fee to DOE for-profit prime
                  contractors based on factors such as the difficulty of work and level of
                  required skills. In order to determine a prime contractor's fee, an
                  evaluation of the contractor's total budget is to be made. Specific cost
                  items that may distort technical and management effort actually required of
                  the contractor are to be excluded from the total budget to arrive at a fee
                  base. Available fee is then determined by applying the fee base to
                  schedules specified in the Acquisition Regulations.

                  Subcontractor costs are among the items that should be excluded from the
                  fee base to the extent that such costs distort a prime contractor's technical
                  and management effort. The determination of subcontractor costs
                  excluded from a prime contractor's fee base is made by individual
                  procurement offices within the Department. The Office of Inspector
                  General has issued prior reports on subcontractor costs. For example, one
                  report found that the Department had significantly increased subcontractor
                  costs included in a prime contractor's fee base, resulting in the Department
                  paying two full fees for the same work. These reports are summarized in
                  Appendix 2.

                  The objective of this audit was to determine if the Department adjusts the
                  fee base of prime contractors in accordance with the technical and
                  management effort actually required of the contractor.


CONCLUSIONS AND   The Department did not adjust the fee bases of prime contractors to reflect
OBSERVATIONS      actual managerial and technical effort associated with the oversight of


Page 1                                                           Prime Contractor Fees On
                                                                      Subcontractor Costs
         subcontractors. This occurred because the Department did not define
         what subcontractor costs should be excluded from or included in prime
         contractor fee bases. As a result, the prime contractor was paid a fee for
         the administration of subcontractors as well as a fee for the
         subcontractors' effort. For the 12 prime contractors audited, fees
         increased in a one-year period by an estimated $34 million because of
         the inclusion of subcontractor costs in the prime contractor fee bases.
         We recommend that the Deputy Assistant Secretary for Procurement
         and Assistance Management (1) issue specific guidance to the
         Department's procurement offices identifying the types of and extent to
         which subcontractor costs may be included in prime contractor fee bases
         and (2) review, as part of a Procurement and Assistance Management
         quality assurance mechanism, subcontractor cost analyses performed to
         ensure implementation of the guidance.

         In response to an earlier draft of this report, management indicated that
         it had developed a proposed revision to the fee policy that establishes an
         upper limit of 80 percent of subcontracted costs that can be included in
         prime contractor fee bases. Management intends to subject its revised
         fee policy "to the same review process as is currently in place for the
         review of management and operating contract fee negotiations." In our
         opinion, the proposed revision needs to be strengthened. It does not
         require or provide guidance to contracting officers on determining the
         type and extent to which subcontract costs should be included in prime
         contractor fee bases. Further, management needs to be proactive in the
         implementation of its fee policy. Past practices have resulted in the
         inclusion of subcontract costs in prime contract fee bases, even though
         little or no managerial or technical effort was required of the prime
         contractor.



                                       ________/S/___________
                                       Office of Inspector General




Page 2                                               Prime Contractor Fees On
                                                          Subcontractor Costs
Adjustment of Fee Bases

Effort Distorted By   In Fiscal Year 1996, the Department included a majority of
Inclusion Of          subcontractor costs in the fee base of its for-profit contractors. A
Subcontractor Costs   detailed analysis of 12 prime contracts indicated that 8 included 100
                      percent of subcontractor costs in the fee base. Another contract
                      included 90 percent of the subcontract costs. In total, 36 percent (or
                      $1.4 billion) of the prime contractors' fee bases were comprised of
                      subcontractor costs. The following table illustrates the subcontractor
                      costs that were included in the fee bases of the 12 contracts.

                                    SUBCONTRACTOR COSTS INCLUDED
                                            IN FEE BASES

                      Number of   Percent of                                   Total
                      Contracts Subcontractor                               Subcontractor
                      Reviewed Costs in Fee Bases           Fee Base            Costs


                          8               100             $2,297,313,337 $1,113,624,277

                          1               90                 198,927,010       155,056,500

                          1               59               1,201,829,000         83,065,000

                          2                0                   72,297,276                   0



                          12                              $3,770,366,623 $1,351,745,777


                      Discussions with field personnel indicated that there were four additional
                      DOE prime contracts in which 100 percent of subcontractor costs were
                      included in the fee bases. However, since procurement officials were
                      not able to provide data on specific subcontract costs included in the fee
                      bases for these four contracts, they were not included as part of our
                      analysis.

                      The following examples illustrate the extent to which individual prime
                      contractor fee bases were enhanced by the inclusion of subcontractor
                      costs:




Page 3                                                                      Details Of Finding
         • Lockheed Idaho Technologies Company (LITCO) is responsible for
           managing and operating the Idaho National Engineering Laboratory.
           LITCO's fee base for Fiscal Year 1996 was $638 million.
           Subcontractor costs of $240 million were included in LITCO's fee
           base.

         • Allied Signal Inc. Kansas City Division (Allied) is responsible for the
           management, operation, maintenance, and support of the
           Department's Kansas City Plant. Allied's fee base for Fiscal Year
           1996 totaled $317 million. Ninety million dollars in subcontractor
           costs were included in Allied's fee base.

         In some cases, the subcontractor efforts did not require significant
         oversight or management by the prime contractor. The use of fixed-
         price contracts and special restrictions placed on the prime contractor
         limited the involvement of the prime contractor in the management of
         the subcontract activities.

         For example, in 1994, the Department’s Contract Reform Team
         recommended the use of fixed-price contracts for routine, repetitive
         services. The report emphasized that fixed-price contracts place full
         performance risk on the contractor and that they typically do not entail
         the level of administrative oversight related to cost-reimbursement
         contracting. Federal Acquisition Regulation, Subpart 16.202-1,
         describes a fixed-price contract as one that "imposes a minimum
         administrative burden upon the contracting parties." According to a
         1997 DOE self-assessment, fixed-price contracting was being used with
         increased frequency. In fact, one prime contractor included in the audit
         utilized fixed-price arrangements for 98 percent of its subcontracts.
         Despite the decreased burden of managing fixed-price contracts, the
         Department included 100 percent of subcontractor costs in many prime
         contractors' fee bases.

         In another case, restrictions were placed on the prime contractor's ability
         to manage subcontract activity. Sandia Corporation performed work
         under the TRW Environmental Safety Systems, Inc. (TRW) contract.
         However, our analysis led us to conclude that TRW had only a limited
         role in directing the work of the subcontractor. The audit disclosed that:
         (1) the Sandia Technical Program Officer was responsible for the
         oversight and integration of all Sandia program activities, including
         developing how Sandia work is to be done and developing performance
         measures; (2) TRW could not alter or impose any scientific


Page 4                                                         Details Of Finding
                          interpretation or analysis of data collected, analyzed, or otherwise
                          interpreted by Sandia--if TRW disagreed, it could state its position to
                          DOE under a separate document; and (3) records identified as protected
                          by Sandia were not available to TRW. Further, Sandia had the authority
                          to communicate directly with the Department. Based on these facts, it
                          appeared that TRW's effort to administer the subcontract was minimal.
                          Consequently, $9 million in Fiscal Year 1996 costs for the Sandia work
                          should have been excluded from TRW's fee base.


Subcontractor Costs Can   DOE Acquisition Regulation (DEAR) 970.1509-6(b) states that a prime
Distort The Prime         contractor's fee base should exclude any part of the estimated cost or
Contractors' Effort       price of subcontracts and other major procurements that are of such
                          magnitude or nature as to distort the technical and management effort
                          actually required of the contractor.

                          The DEAR defines a prime contractor's fee base as "an estimate of
                          necessary allowable costs to which a fee factor has been applied to
                          determine the maximum fee allowance." It further identifies specific
                          cost items, such as subcontracts, that may distort the prime contractor's
                          effort and should be excluded from estimated costs in the calculation of
                          available fees. The practical effect of this provision suggests that prime
                          contractor fee calculations be based on costs associated with the prime
                          contractor's actual effort, not on costs associated with another entity.


Need For Specific         Most subcontractor costs were included in prime contractor fee bases
Policy And Procedures     because the Department had not developed specific policies and
                          procedures. The Department had not provided contracting officials with
                          definitive criteria to determine which subcontract costs should be
                          included or excluded. Specifically, policies and procedures were not in
                          place to analyze the propriety of prime contractor fees, and the DEAR
                          did not define or explain "such magnitude or nature as to distort the
                          technical and management effort actually required of the contractor."

                          We found varying interpretations of the existing DEAR provisions. For
                          example, some contracting officials did not consider subcontractor costs
                          when negotiating a contractor's fee base. In contrast, others were of the
                          opinion that subcontractor costs are an integral part of prime contractor
                          operations and should generally be included in the fee base. Another
                          official stated his reason for including subcontracting costs is that the
                          Department did not want the exclusion of subcontracting costs to
                          become a disincentive to the cost effective operation of the site.

Page 5                                                                          Details Of Finding
                         Documentation and support for the decisions made in some cases was
                         insufficient. For example, one procurement official stated that 10
                         percent of the prime's subcontractor costs were excluded because it was
                         past practice. Other officials were not able to identify subcontractor
                         costs included or excluded from the prime contractor fee bases. One
                         contracting official stated that he could not provide subcontractor cost
                         amounts for Fiscal Year 1996 because the information was never
                         obtained by the Department. The information, according to this official,
                         would have to be provided by the previous contractor. In another
                         situation, the Departmental pre-negotiation package that identified
                         subcontractor exclusions was prepared by the contractor.

                         The Department has made some efforts to address this situation. At the
                         completion of the fieldwork phase of this audit, these efforts had just
                         been initiated. In April 1998, a proposed fee policy was drafted. It
                         stated that up to 80 percent of subcontractor costs might be included in
                         a contractor's fee calculation "if the contracting officer determines that
                         there are unique circumstances involving extraordinary management
                         effort required to manage subcontract activities." Although this
                         provision does not correct situations where excessive subcontractor
                         costs are included in prime contractor fee bases, it provides an upper
                         limit of 80 percent of costs and implies that an evaluation of contractor
                         management effort is required.

                         A Headquarters Procurement official agreed that the Department should
                         not be including 100 percent of subcontractor costs in prime contractor
                         fee bases. This official added that DOE field offices could misinterpret
                         the upper limit of 80 percent as a minimum. This misinterpretation
                         could result in automatically allowing 80 percent of subcontractor costs
                         in prime contractor fee bases. He added that 80 percent is a guide, and a
                         prime contractor fee base should only include that portion of
                         subcontractor costs that reflect the prime's effort in managing
                         subcontracts. He stated that his office intends to review subcontractor
                         costs included in prime contractor fee bases because the Department
                         needs to develop a prudent business approach to subcontracting.


Fees On Work Performed   By including subcontractor costs in prime contractor fee bases, the
By Subcontractors        Department is, in essence, paying two fees for the same effort.
                         Subcontracting efforts are included in the prime contractor's fee base,
                         plus each prime contractor pays its subcontractors a fee for the actual
                         work performed. For example, TRW paid Sandia an estimated


Page 6                                                                         Details Of Finding
                  $131,000 fee on $8.8 million of work in Fiscal Year 1996. TRW earned
                  about $188,000 in fee for the same work. In addition, prime contractors
                  are reimbursed for the costs associated with the administration and
                  oversight of subcontractors.

                  The 12 prime contractors included in this review received an estimated
                  $34 million in fees for subcontractor costs during a one-year period. In
                  the LITCO example illustrated on Page 4, including subcontractor costs
                  in the fee base resulted in an earned fee of $20.3 million in Fiscal Year
                  1996. Excluding subcontractor costs from the fee calculation would
                  have resulted in an earned fee of $12.4 million--a reduction of 39
                  percent. In the Allied example, the inclusion of subcontractor costs in
                  the fee base resulted in an earned fee of $19.3 million. Excluding the
                  costs would have resulted in a fee earned of $15.8 million--a reduction
                  of 18 percent.


RECOMMENDATIONS   We recommend that the Deputy Assistant Secretary for Procurement
                  and Assistance Management:

                  1. Issue specific guidance to the Department's procurement offices
                     identifying the types of and extent to which subcontractor costs may
                     be included in prime contractor fee bases.

                  2. Review, as part of a Procurement and Assistance Management
                     quality assurance mechanism, subcontractor cost analyses performed
                     to ensure fee policy is implemented.


MANAGEMENT        By memorandum dated July 17, 1998, the Office of Contract and
REACTION          Resource Management commented on a draft of this report. A summary
                  of management's comments follows. Appendix 3 contains management's
                  verbatim comments.

                  Management did not support the conclusion that all or even a majority
                  of subcontractor costs should be removed from a prime contractor's fee
                  base, or that the inclusion of such costs contributes to fee growth.
                  Management stated that DOE Acquisition Regulation 970 is a subjective
                  measure. The composition of the fee base "...will depend upon many
                  variables including any required involvement by the prime contractor in
                  performing the work, providing value added to the subcontracted work,




Page 7                                              Recommendations And Comments
           or managing and integrating numerous subcontracts." Additionally, it
           will depend on the type of subcontract, complexity of effort, and prime
           contractor's fee risk.

           Management proposed a revision to the fee policy (DEAR 970) in April
           1998. In developing this new policy, management recognized that there
           might not be adequate adjustments to prime contractor fee bases. The
           revision stipulates that a prime contractor's fee base shall include no
           more than 80 percent of subcontracted costs based on the contracting
           officer's discretion and on an assessment of the distortion of
           subcontractor costs. Management intends to subject its revised fee
           policy guidance "to the same review process as is currently in place for
           the review of management and operating contract fee negotiations."


AUDITOR    The Office of Inspector General did not conclude that all or even a
COMMENTS   majority of subcontractor costs should be removed from a prime
           contractor's fee base. Subcontract costs included in a prime contractor's
           fee base should relate directly to the prime contractor's effort and
           contribution to the successful accomplishment of the subcontract. Our
           review of prime contract negotiations revealed that analyses generally
           are not conducted to determine which subcontractor costs should be
           included in prime contractor fee bases. In addition, including all or most
           subcontractor costs in the prime contractor fee bases has been costly,
           especially in light of the fact that the prime contractors are already
           reimbursed by the Department for their subcontractor management
           efforts.

           Management's proposed fee policy would provide an upper limit. In our
           judgment, however, it will not correct situations where excessive
           subcontractor costs are included in prime contractor fee bases.
           Management stated that contracting officers must make an assessment
           of the distortion of subcontractor costs. However, the proposed policy
           does not require, or provide guidance on, such an assessment. Specific
           guidance is needed to assist contracting officers in determining the type
           and extent to which subcontract costs should be included in prime
           contractor fee bases. Further, a quality assurance mechanism is needed
           to ensure that the fee policy is implemented.




Page 8                                       Recommendations And Comments
Appendix 1

SCOPE         The audit was performed between March 1997 and March 1998 and
              focused on Fiscal Year 1996 data to determine if the Department adjusts
              the fee bases of prime contractors in accordance with the technical and
              management effort actually required of the contractor.

              Site visits were made to (1) Allied Signal - Kansas City Plant in Kansas
              City, Missouri; (2) TRW, Inc. in Las Vegas, Nevada, and Vienna,
              Virginia; (3) Sandia National Laboratories in Albuquerque, New
              Mexico; and (4) Headquarters Procurement.


METHODOLOGY   To accomplish the audit objective, we obtained and reviewed applicable
              laws and regulations pertaining to earned fees on subcontracting efforts
              and related reports issued by the Office of Inspector General.
              Additionally, discussions were held with Departmental officials who
              provided information regarding subcontracting practices and costs and
              the inclusion of subcontractor costs in prime contractor fee bases.

              The analysis of fees paid to prime contractors on subcontractor costs
              was performed by obtaining fee base categories and subcontractor costs
              in each category (production, research and development, etc.) from
              negotiation documentation. Fee earned was then equally weighted
              among each fee category and the earned fee on subcontractor costs was
              estimated.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed. We did not rely on computer-
              processed data to accomplish our audit objective.

              Management waived an exit conference on this audit effort.




Page 9                                                      Scope And Methodology
Appendix 2



                       PRIOR OFFICE OF INSPECTOR GENERAL REPORTS


    Prior OIG reviews related to subcontractor fee issues are:

          • Inspection of Westinghouse Savannah River Company Fees for Managing and
            Operating the Savannah River Site, Report Number DOE/IG-0377, dated August 1995.
            This inspection found that the Department had significantly increased the percentage of
            subcontractor costs in Westinghouse's fee bases from FY 1989 to FY 1993, which
            resulted in the Department paying two full fees for the same work. The OIG
            recommended that the Deputy Assistant Secretary for Procurement and Assistance
            Management establish a standard for weighting the dollar value of subcontracts in fee
            bases, along with a requirement for justification and approval when the standard is
            exceeded.

          • Audit of Department of Energy Support Service Contracting, Report Number
            CR-B-95-06 dated June 1995. This audit found that the absence of a Departmental
            policy addressing the inclusion of subcontractor labor in support service contractor fee
            determinations resulted in the Department paying $5.1 million in fees to four support
            service contractors for services exclusively provided by subcontractors.




Page 10                                                                                       Prior Reports
Appendix 3

                                          Department of Energy
                                          Washington, DC 20585


                                                 July 17, 1998

  MEMORANDUM FOR:                WILLIAM S. MAHARAY, ACTING MANAGER
                                 CAPITAL REGIONAL AUDIT OFFICE
                                 OFFICE INSPECTOR GENERAL

  FROM:                          STEPHEN J. MICHELSEN, DIRECTOR
                                 OFFICE OF CONTRACT AND RESOURCE MANAGEMENT
                                 OFFICE OF PROCUREMENT AND ASSISTANCE
                                 MANAGEMENT

  SUBJECT:                       RESPONSE TO DRAFT REPORT ON "AUDIT OF THE U.S.
                                 DEPARTMENT OF ENERGY'S PRIME CONTRACTOR FEES
                                 EARNED ON SUBCONTRACTOR COSTS"

  The U. S. Department of Energy (DOE) appreciates the opportunity to review and comment on the
  Inspector General's (IG) draft report on "Audit of the U.S. Department of Energy's Prime Contractor
  Fees Earned on Subcontractor Costs." The stated objective of the audit was to determine if the
  Department adjusts the fee base of prime contractors in accordance with the technical and
  management effort actually required by the contractor as required by the DEAR. The conclusion of
  the audit is that the Department did not adjust the fee bases of the prime contractors to reflect actual
  managerial and technical effort associated with the oversight of subcontractors. The report
  recommends that the Deputy Assistant Secretary for Procurement and Assistance Management (l)
  issue specific guidance to the Department's procurement offices identifying the types of and extent to
  which subcontractor costs may be included in M&O contractor fee bases and (2) as part of a
  Procurement and Assistance Management quality assurance mechanim, review subcontractor costs
  analyses performed to ensure implementation of the guidance.

  Generally, this office does not take exception with the audit's findings nor the recommendations.
  However, we disagree with the conclusion that it is or should be the policy of the Department to
  remove all or even the majority of subcontractor costs from the prime contractor's fee base when
  calculating the prime contractor's fee amount and that the inclusion of subcontract costs in the prime
  contractor's fee base is unreasonable and contributes to fee growth in the Department. The DEAR
  states that only those costs which reflect a distortion in the management effort or resources
  contributed by the prime contractor should be deducted from the fee base. This is a subjective measure


Page 11                                                                            Management Comments
    and will depend upon many variables including any required involvement by the prime contractor in
    performing the work, providing value added to the subcontracted work, or managing and
    integrating numerous subcontracts. It will also depend on the type of subcontract, the complexity of
    the effort to be performed and the risk to the prime's fee if the work is not performed well. For
    instance, the use of many fixed price subcontracts which must be integrated at the prime level may
    warrant inclusion of all the costs in the prime's fee base. The rationale is that even though any one
    of the subcontractors may be held accountable for its specific effort, if that effort is performed
    poorly to the point that it impacts the others, then the prime contractor is accountable.

    Both FAR 15 and DEAR 915 weighted guidelines provisions recognize the inclusion of all costs
    associated with subcontracts as a legitimate basis for determining the prime contractor's fee. The
    issue in subcontracting is not how much fee is available, but if the work is being performed more
    efficiently (cost and fee) than if the prime contractor had performed it. It is noted that both policies,
    in recognition that the prime contractor may not provide the same level of management and
    resources to effort which is subcontracted, allow or provide that the amount of fee associated with
    subcontractor costs be less than if the prime contractor were doing the effort itself. The policy, set
    forth in the DEAR as it applies to M&O contracts, attempted to make provision for a similar
    adjustment in an environment which was not conducive to different fee ranges for different
    categories of cost. As noted in the audit, appropriate adjustments may not always have been taken.
    However, the impact of not taking these adjustments s not the fee amount associated with 100% of
    the subcontracted costs (as is implied by the audit when it points out that including subcontract
    costs in the 12 prime contracts reviewed resulted in an increase of $34,000,000 in fee), but some,
    probably small, portion of it.

    The Department has recognized that there may not be adequate adjustments to the prime
    contractor's fee bases reflecting a distortion in the technical and management effort actually
    required of the prime contractor. In the revision to the flee policy (currently published as a NOPR)
    as it applies to the Department's management and operating contracts, a stipulation has been made
    that the prime contractor's fee base shall include no more than 80% of subcontracted costs. The
    amount of costs of subcontracted effort to be included in the prime contractor's fee base up to that
    percent is at the discretion of the contracting of ricer based again on an assessment of the distortion
    in the technical and management effort actually required of the prime contractor. The impact of this
    adjustment to subcontract costs included in the fee base approximates the impact of similar
    adjustments effected by the weighted guidelines method (where lower fee ranges are applied to
    subcontracts).

    With the change to the fee policy as it pertains to management and operating contracts, compliance
    with the change will be subject to the same review process as is currently in place for the review of
    management and operating contract fee negotiations.




Page 12                                                                             Management Comments
                                                                         IG Report No. DOE/IG-0427

                                CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and,
therefore, ask that you consider sharing your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of
   the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in
   this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                  Office of Inspector General (IG-1)
                                        Department of Energy
                                       Washington, DC 20585

                                     ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


       Department of Energy Human Resources and Administration Home Page
                            http://www.hr.doe.gov/ig


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.


                          This report can be obtained from the
                              U.S. Department of Energy
                     Office of Scientific and Technical Information
                                      P.O. Box 62
                             Oak Ridge, Tennessee 37831
